U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Erik Becerra v. United States of America,
S.Ct. No. 20-5341

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 5,
2020, and placed on the docket on August 13, 2020. The government’s response is due on
September 14, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 14, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5341
BECERRA, ERIK
USA

MANVIR KAUR ATWAL
OFFICE OF THE FEDERAL DEFENDER
107 U.S. COURTHOUSE
300 SOUTH FOURTH STREET
MINNEAPOLIS, MN 55415
612-664-5858

